HHS/OIG, Audit -"Review of Cardiac Rehabilitation Services at Butler County Health Care Center, David City, Nebraska,"(A-07-03-00157)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Cardiac Rehabilitation Services at Butler County Health Care Center, David City, Nebraska," (A-07-03-00157)
January 30, 2004
Complete
Text of Report is available in PDF format (411 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether:  (1) Butler County Health Care Center's (BCHCC) policies
and procedures reflected Medicare cardiac rehabilitation coverage requirements for direct physician supervision, incident
to services, and Medicare covered diagnoses; and (2)  payments to BCHCC for outpatient cardiac rehabilitation services
provided to Medicare beneficiaries during Calendar Year 2001 were for Medicare covered diagnoses, were supported by adequate
documentation, and were otherwise allowable for reimbursement.  BCHCC
did not designate a physician to directly supervise the services provided by its cardiac rehabilitation staff.  In
addition, we could not identify the physician professional services to which the cardiac rehabilitation services were provided incident
to.